AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20-6907
X

DASHON HINES.
Petitioner,
v.
TOPSHELF MANAGEMENT, et al.,
Respondents.
X

STATE OF NEW YORK )
COUNTY OF NEW YORK)
I, Dashon Hines, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am acting pro-se before the Supreme Court of the United States.
That on the 17th day of February 2021,1 served the within Rebuttal Brief in Support of
My Petition For Writ of Certiorari,
the above-captioned matter upon:
Joseph M. Hanna
Counsel of Record
Goldberg Segalla LLP
665 Main Street
Buffalo New York 14203
(716) 566-5447
ihanna@,goldbergsegall.com
18

by sending one copy of same, addressed to each individual respectively, and
enclosed in a properly addressed wrapper, through the United States Postal Service, by
Express Mail, postage prepaid.
That on the same date as above, I sent to this Court eleven copies and 1 un-bound
copy of the within Rebuttal Brief in Support of My Petition For Writ of Certiorari.through the
United States Postal Service by Express Mail, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 17th
ly of February 202Tr

Dashon Hines
Sworn to and subscribed before me

• ••la C Hughes
'• '’HU6214623
vy Public State Of New York
■ -■■■uSisd in Erie County

; ty Commission Expires
• ?/i4/20

bai iiia a Hughes
NO.Q1HUII14623

Notary Public State of New York

asasssasss^*1

No.
Qualified in Erie Countyy
Commission Expires:

|

\M2J

19

